                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I04120050                                                                        Page 1 of 1



        National Science Foundation, OIG opened this investigation based on a proactive Participant
        Support review. The grantee' initially submitted documents that did not adequately report
        Participant Support Costs as requested by OIG for the NSF grant.2 The initial submission also
        included employee travel, consultant travel, and consultant fees. At an initial meeting with the
        grantee, they stated that the NSF grant was its first Federal Grant. They admitted that the
        submission to OIG did not adequately reflect the cost related to the grant. They also agreed to
        complete a full review of all expenditures for the grant and provide a detailed accounting.

        At a second meeting at the grantee, we reviewed source documentation for the different cost
        areas. No issues of fraud and or misuse of NSF funds were identified during this review. At the
        conclusion of this meeting, the grantee agreed to provide a final summary of cost related to the
        grant and a summary of improvements implemented based on this review.

        The grantee provided a final accounting of the cost related to the grant which detailed that the
        grantee expended more for Participant Support than the amount budgeted in the award letter.
        The grantee also adequately accounted for all cost related to the grant. The grantee stated, "As a
        result, we are currently transitioning to a new accounting system that will better fit our needs as a
        growing organization and better mesh with future federal reporting requirements. We have also
        instituted new accounting guidelines that will help improve communications between project
        staff and the accounting department."
                                                                             IS
         Since the grantee accounted for all grant expenditures, this matter @ closed.




                                                                                                                I1

1
NSF OIG Form 2 (1 1102)
